No. 20-

311 tbe Oupreme Court of tije aintteb Optateti
JEFF SCHULZ, ELLEN SCHULZ, LIZ CEDERGREEN, DAVID MARTIN, LINDSEY MCDOWELL
GEORGE NORRIS, NATHAN ORONA, AND KATHRYRN OSTROM, AS TRUSTEES OF THE FIRST
PRESBYTERIAN CHURCH OF SEATTLE, A WASHINGTON NONPROFIT CORPORATION,
PETITIONERS
V.
THE PRESBYTERY OF SEATTLE, ET AL., RESPONDENTS
ON PETITION FOR WRIT OF CERTIORARI
TO THE COURT OF APPEALS
FOR THE STATE OF WASHINGTON

PETITION FOR WRIT OF CERTIORARI
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, as a member of the Supreme Court
bar, certify that the document contains 8,995 words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 28, 2020.

r)
Steffen N. Johns n
Wilson Sonsini Goodrich & Rosati
Counsel for Petitioners

